           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION


        PERFORMANCE

      MEASURE REVIEW:

 RELIABILITY OF THE DATA USED

 TO MEASURE SOCIAL SECURITY

 NUMBER REQUEST PROCESSING


    MARCH 2000   A-02-99-01009




AUDIT REPORT

                             Office of the Inspector General

March 20, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Performance Measure Review: Reliability of the Data Used to Measure Social Security
Number Request Processing (A-02-99-01009)


To fulfill the responsibilities of our workplan related to performance measurement, we
contracted PricewaterhouseCoopers (PwC) to evaluate nine of the Social Security
Administration’s (SSA) Fiscal Year 1999 performance indicators that were established
by SSA to comply with the Government Performance and Results Act.

Attached is a copy of the final report on one of the performance indicators reviewed.
The objective of this review was to assess the reliability of the data used to measure
performance of the Social Security Number card request process.

In addition to releasing individual reports on the performance indicators reviewed, PwC
released a summary report on all of the indicators reviewed. SSA commented on the
summary report, Performance Measure Review: Summary of PricewaterhouseCoopers’,
LLP Review of the Social Security Administration's Performance Data (A-02-00-20024).
Agency comments to the summary report were provided to us on January 28, 2000.
The comments related to the subject of this report are included in Appendix C. PwC
reformatted the Agency comments to align them with the firm's recommendations
presented in the final report. Nonetheless, SSA's comments were not changed during
the reformatting process.

You do not need to respond to this report, since you are responding to the same
comments attached to PwC’s summary report. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaefer, Assistant Inspector
General for Audit, at 410-965-9700.



                                                James G. Huse, Jr.

Attachment
Evaluation of Selected Performance

Measures of the Social Security

Administration:

Reliability of the Data Used to

Measure Social Security Number

Request Processing

Office of the Inspector General
Social Security Administration


Agency comments to this report were provided to us on January 28, 2000. Many of the
recommendations made in this report are also found in earlier financial statement audit
reports. In Appendix C, the Agency notes in its comments, “Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response.”

For the reader to be fully aware of SSA’s comments that were made to each of the
duplicate recommendations found in this present report, we incorporated those Agency
comments, that were made contemporaneous to the earlier audit report recommendations,
as part of the Agency comments located at Appendix C of this report.




A-02-99-01009                                                 February 18, 2000
                         Table of Contents


Performance Measures Evaluation

 Introduction                                    1

 Results of Engagement                           2

 Other Matters                                   10

Appendix A: Background                           A1

Appendix B: Scope and Methodology                B1

Appendix C: Agency Comments and PwC Response     C1

Appendix D: Performance Measure Summary Sheets   D1

Appendix E: Performance Measure Process Maps     E1
INTRODUCTION

The Government Performance and Results Act (GPRA), Public Law Number 103-62,
107 Statute 285 (1993), requires the Social Security Administration (SSA) to develop
performance indicators for fiscal year (FY) 1999 that assess the relevant service levels
and outcomes of each program's activity. GPRA also calls for a description of the
means employed to verify and validate the measured values used to report on program
performance. SSA has stated that the Office of the Inspector General (OIG) plays a
vital role in evaluating the data used to measure performance. The OIG contracted
PricewaterhouseCoopers (PwC) to evaluate the following GPRA performance
indicator(s):

1.	 Percent of Old Age and Survivors' Insurance (OASI) claims processed by the
    time the first regular payment is due, or within 14 days from effective filing
    date, if later
2. OASI claims processed
3.	 Percent of initial Supplemental Security Income (SSI) aged claims processed
    within 14 days of filing
4. SSI aged claims processed
5. Representative Payee Actions
6. Social Security Number (SSN) requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9.	 Percentage of individuals issued SSA-Initiated Personal Earnings and Benefit
    Estimate Statements (SIPEBES) as required by law

To evaluate the nine SSA performance indicators established by SSA to comply with
GPRA, PwC was contracted to:

•	 Gain an understanding and document the current FY 1999 system sources from
   which data is collected to report on the specified performance measures;
•	 Identify and test critical controls (both electronic data processing (EDP) and manual)
   of current FY 1999 systems from which the specified performance data is generated;
•	 Test the accuracy of the underlying FY 1998 data for each of the specified
   performance measures;
• Recalculate each specific FY 1998 measure to ascertain its mathematical accuracy;
•	 Evaluate the impact of any relevant findings from prior and current audits with
   respect to SSA's ability to meet performance measure objectives; and
•	 Identify findings relative to the above procedures and make suggestions for
   improvement.

This is one of six separate stand-alone reports, corresponding to the following SSA
process, performance measure (PM), and Contract Identification Number (CIN):

•   SSN Requests (PM #6)                              A-02-99-01009



                                            1

This report reflects our understanding and evaluation of the SSN requests processed
process. The report is organized in the following manner. The next section titled
"Results of Engagement" identifies our findings and explains their relevance to SSA
performance measurement. It also provides recommendations and suggestions for
improvement. The subsequent “Other Matters” section discusses the relevance of each
performance measure with respect to GPRA. All other information is contained in the
appendices, as follows:

APPENDIX A – Background
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Performance Measure Summary Sheets
APPENDIX E – Performance Measure Process Maps


RESULTS OF ENGAGEMENT

During the period of June 9, 1999 to October 1, 1999, we evaluated the current
processes, systems and controls, which support the FY 1999 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Since FY 1999 data were not always available, we often
used FY 1998 data to perform our testing. Although SSA was not required to comply
with GPRA until FY 1999, they voluntarily reported results in the FY 1998 Accountability
Report for SSN Requests. As a result, we were able to use our knowledge of current
processes, systems, and controls to judge the accuracy of the performance measures
based on the FY 1998 results.

Our evaluation allowed us to determine that the reported FY 1998 results of the
performance measure tested (as itemized below) was reasonably stated.

   Performance Measure                                     Reported Result
   6. SSN requests processed                                   16,200,000


However, we did note the following seven opportunities for improvement, listed in order
of their relative importance:

1.	 SSA lacks sufficient performance measure process documentation and did not retain
    documents to support the FY 1998 amounts
2. SSA has a number of data integrity deficiencies
3. SSA's system environment has security deficiencies
4.	 GPRA documents prepared for external evaluation of SSA performance do not
    clearly indicate the sources of the performance measures
5.	 The Cost Analysis System (CAS) procedural and systems documentation have not
    been updated


                                           2

6. SSA has systems design and documentation deficiencies
7. SSA has a number of deficiencies in their systems contingency plan

Additionally, we evaluated the appropriateness of the nine performance measures with
respect to the future requirements of GPRA. As a result, we noted three areas in which
SSA could better prepare itself to incorporate the final phases of GPRA in their
processes. These results are discussed below in the Other Matters section.

These items were noted as a result of our testing the underlying performance measure
data, as well as the EDP and manual controls of the systems generating the
performance measure data, and are discussed in detail below.

Throughout our evaluation of the nine performance measures, we noted the strong
commitment of SSA's staff to correctly implement GPRA.


1.	   SSA lacks sufficient performance measure process documentation and did
      not retain documents to support the FY 1998 amounts

GPRA requires that agencies "describe the means to be used to verify and validate
measured values." Furthermore, the Office of Management and Budget (OMB) Circular
No. A-123, Internal Control Systems, requires that "documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination." Finally, National Institute of Standards and Technology (NIST) Special
Publication 800-18, 5.MA.7, requires that system documentation be maintained as part
of a formalized security and operational procedures record. Therefore, agencies must
establish a clear methodology for verifying performance measure values, and retain the
appropriate documentation to enable an audit of their performance measure values
based on the methodology. Although this requirement was not effective for the FY 1998
Accountability Report, it is effective beginning in FY 1999.

While general policies and procedures exist for all documents produced at SSA (as
found in the SSA Administrative Instructions Manual System/Operational and
Administrative Record Schedules), SSA does not have formal policies and procedures
in place regarding the retention of performance measure documentation. During
testing, we noted that SSA lacked sufficient documentation regarding the processes
surrounding the accumulation and generation of performance indicator data.
Furthermore, SSA could not consistently provide the documentation necessary to verify
their performance measure values as reported in their FY 1998 Accountability Report.

Specifically, we noted that SSA was unable to provide a comprehensive process map
documenting the flow of performance measure data from the receipt of an SSN
application, through the Modernized Enumeration System (MES, the system of record),
to the accumulation of yearly performance measure data in the CAS.




                                           3

If SSA does not establish a methodology for verifying performance measure values and
institute an adequate document retention system, they will not be in compliance with
GPRA. Furthermore, a significant lack of documentation does not provide a proper
audit trail to facilitate verification of the performance measures as required by GPRA.

Recommendations:
We recommend that SSA expand the role of Office of Strategic Management (OSM)
with respect to performance measures or place ownership for the performance measure
process and reporting within an organizational unit. In either case, data ownership
would still remain with the user organizations. However, an organizational unit should
be accountable for the overall performance measure processes and results. Their
charter should include the following responsibilities:

•	 Identify and document the processes surrounding the generation and accumulation
   of performance measure values. This would establish a clear method for verifying
   and validating the performance measures

•	 Establish policies and procedures surrounding the retention of performance measure
   documentation. The documentation retained should allow for the timely verification
   of the performance measure values, and should be maintained for at least one year

•	 As new systems are developed, evaluate their potential impact on the accumulation
   of performance measure data. Systems with potential impact should be designed to
   include the means of producing a verifiable audit trail to validate the performance
   measure results as they are defined in the Accountability Report


2.    SSA has a number of data integrity deficiencies

OMB Circular No. A-127, Financial Management Systems, requires that a Federal
Agency's systems include a system of internal controls to ensure that the data used to
produce reports is reliable. During our FY 1999 Financial Audit, we noted a number of
data integrity deficiencies that result in a lack of control over both the input and
maintenance of data, as well as the resolution of suspense items. While an adverse
effect upon performance measure data was not observed during our testing, this lack of
control can affect the validity and completeness of the performance measures as
follows:

•	 Service Representatives (SRs) and Claims Representatives (CRs) authorized to
   process applications for new and replacement SSNs (SS-5 forms) sometimes
   accepted insufficient or inappropriate proofs of identity and age from applicants
   (affects the MES). If insufficient or inappropriate proofs are accepted, the resulting
   data entered into MES may be invalid. While this data noted above may not have a
   direct effect on the performance measure (#6), its presence indicates the possibility
   that other MES data lacks integrity




                                            4

•	 Field office (FO) personnel were performing inconsistent, incomplete, inaccurate,
   and untimely reviews of the Enumeration Sample Listing (affects the MES). Data
   from the MES is used to generate performance measure #6. This report is a control
   used by SSA to ensure data integrity. If the control is not operating properly, the
   data may lack integrity

•	 Field office personnel were performing inconsistent, incomplete, inaccurate, and
   untimely reviews of the weekly Diary Alert (Aged Investigate/Suspect) Report which
   is a tool for informing FO management of enumeration investigate messages and
   suspect evidence cases that have not yet been cleared by the FO (affects the MES).
   Data from the MES is used to generate performance measure #6. This report is a
   control used by SSA to ensure data integrity. If the control is not operating properly,
   the data may lack integrity

•	 There is no independent verification of birth data supporting applications for original
   SSNs for U.S. citizens under 18 years of age, either at the FO or through the
   Enumeration at Birth (EAB) process. The birth data is obtained from hospitals or
   from each state's Bureau of Vital Statistics, and is relied upon by SSA without
   independent review (affects the MES). Without an independent third party review,
   SSA cannot determine if key controls are in place to ensure the security, validity,
   completeness, and accuracy of the data. While this unverified data may not have a
   direct effect on the performance measure (#6), its presence in MES indicates the
   possibility that other MES data lacks integrity

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should provide institutional oversight and regular training to authorized FO
   personnel in the processing of SS-5s (MES)

•	 SSA should develop and implement detailed procedures in the Program Operations
   Manual System (POMS) for reviewing the Enumeration Sample Listing. Procedures
   should specifically address: 1) the individual who is to perform the review, 2) steps
   on how to complete the review and document the results of the review, and 3) the
   individual whom is to approve the review, as well as requirements for annotating the
   approval signature on the report. In addition, POMS should define retention
   requirements for the records of completed reviews (MES)

•	 SSA should develop and implement detailed procedures in POMS for reviewing the
   Diary Alert. Procedures should specifically address: 1) the individual who is to
   perform the review, 2) steps on how to complete the review and document the
   results of the review, and 3) the individual who is to approve the review, as well as
   requirements for annotating the approval signature on the report. In addition, POMs
   should define retention requirements for the records of completed reviews (MES)




                                             5

•	 SSA should perform a third party review of state agencies, such as a Statement on
   Auditing Standards (SAS) 70 review. A SAS 70 review will determine if key manual
   and automated controls are in place and working as intended to ensure the security,
   validity, completeness, and accuracy of SSA data (MES)



3.       SSA's system environment has security deficiencies

We noted in our FY 1999 Financial Audit that SSA’s systems environment remains
threatened by weaknesses in several components of its information protection internal
control structure. Because disclosure of detailed information about these weaknesses
might further compromise controls, we are providing no further details here. Instead,
the specifics are presented in a separate, limited-distribution management letter, dated
November 18, 1999. The general areas where weaknesses were noted are:

•	 The entity-wide security program and associated weaknesses in developing,
   implementing and monitoring local area network (LAN) and distributed systems
   security;

•    SSA’s mainframe computer security and operating system configuration;

•    Physical access controls at non-headquarter locations; and

•	 Certification and accreditation of certain general support and major application
   systems.

Until corrected, these weaknesses will continue to increase the risks of unauthorized
access to, and modification or disclosure of, sensitive SSA information. While these
weaknesses do not directly affect the performance measures, a risk still exists.
Unauthorized access to sensitive data can result in the loss of data associated with
SSA’s enumeration, earnings, retirement, and disability processes and programs, thus
affecting all performance measures.

Recommendations:
As previously reported in the FY 1999 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•    Reevaluate its overall organization-wide security architecture;

•	 Reassess the security roles and responsibilities throughout the organization’s central
   and regional office components;



                                              6

•	 Assure that the appropriate level of trained resources are in place to develop,
   implement and monitor the SSA security program;

•	 Enhance and institutionalize an entity-wide security program that facilitates
   strengthening of LAN and distributed systems’ security;

•     Review and certify system access for all users;

•	 Enhance procedures for removing system access when employees are transferred
   or leave the agency;

•     Decrease vulnerabilities in the mainframe operating system configuration;

•     Implement the mainframe monitoring process;

•     Finalize accreditation and certification of systems;

•	 Develop and implement an ongoing entity-wide information security compliance
   program; and

•     Strengthen physical access controls at non-headquarters sites.

More specific recommendations are included in a separate, limited-distribution
management letter, dated November 18, 1999.


4.	      GPRA documents prepared for external evaluation of SSA performance
         could better document the sources of the performance measures

Since FY 1999, OMB Circular A-11, Preparation and Submission of Strategic Plans,
Annual Performance Plans, and Annual Program Performance Reports, states that "the
annual plan must include an identification of the means the agency will use to verify and
validate the measured performance values." This suggests that an agency should detail
the source of performance data. SSA's documents prepared for external reporting,
including the 1997-2002 Strategic Plan, the FY 2000 Annual Performance Plan, and the
FY 1998 Annual Accountability Report, could better document the SSA sources used to
obtain the performance measures we evaluated.

In the case of three performance measures, the FY 2000 Annual Performance Plan, the
most recent document at the time of this evaluation, does list a data source for
Performance Measure #1 as "The End-of-Line Processing Report," a data source for
Performance Measure #3 as "The Title XVI Processing Time System," and a data
source for Performance Measure #8 as the "Earnings Posted Overall Cross Total/Year
to Date System (EPOXY)." However, the external stakeholder is not told of the origin of
these documents or of the underlying processes and programmatic systems that



                                                7

produce the reported metrics. Furthermore, the sources of the other six measures are
not clearly indicated.

All nine metrics are referred to in the SSA documentation as GPRA indicators. As a
result, OMB Circular A-11, Section 220.12, requires that they be documented. By
improving the description of the sources, SSA would enhance the credibility of the
underlying data used to formulate each performance measure.

Recommendation:
We recommend that SSA develop clear and concise descriptions of each performance
measure's source. As specifically recommended by OMB Circular A-11, these
descriptions should include:

•	 The current existence of relevant baseline data, including the time-span covered by
   trend data;
• The expected use of existing agency systems in the collection and reporting of data;
• The source of the measured data;
•	 Any expected reliance on an external source(s) for data, and identification of the
   source(s); and
•	 Any changes or improvements being made to existing data collection and reporting
   systems or processes to modify, improve, or expand their capability.


5.    CAS procedural and systems documentation have not been updated

OMB Circular A-127, Financial Management Systems, requires that all system
"documentation (software, system, operations, user manuals, operating procedures,
etc.) shall be kept up- to-date" and that "system user documentation shall be in
sufficient detail to permit a person, knowledgeable of the agency's programs and of
systems generally, to obtain a comprehensive understanding of the entire operation of
each system. Technical systems documentation such as requirements documents,
systems specifications and operating instructions shall be adequate to enable technical
personnel to operate the system in an effective and efficient manner."

During our FY 1999 Financial Audit testing, we noted that the procedural and systems
documentation for CAS was not current, with the last update occurring in FY 1995.
Since this last update, two major changes have occurred: (1) a reorganization that
combined functions of the former Cost Analysis Branch and the former Budget Systems
Branch into the Division of Cost Analysis (DCA), and (2) migration of CAS to the
National Computer Center mainframe computer system. Thus, out-of-date
documentation could result in a situation where new and/or existing DCA employees do
not have adequate reference material to assist them in the timely and successful
completion of their job tasks/responsibilities. If SSA does not use CAS successfully, all
performance measure indicators accumulated using CAS (including #6) could be
affected. Data relating to the relevant performance measures may not be accumulated
correctly or completely. It should be noted that SSA is in the process of replacing CAS


                                            8

piecemeal. As segments are replaced, SSA has obtained current systems
documentation (but not procedural documentation).

Recommendation:
We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.


6.     SSA has systems design and documentation deficiencies

During our FY 1999 Financial Audit testing, we noted specific systems design and
documentation deficiencies that indicate a lack of control over both the system design
and documentation. While these deficiencies do not have a direct effect on the
performance measures, a risk still exists. This lack of control affects the ability of SSA
to effectively design, implement, and use their computer systems. If SSA is not
effectively using their computer systems to accumulate and calculate performance
measures, the resulting performance measure amounts could be affected. Our specific
findings were:

•	 Full documentation of program changes evidencing user approval and testing was
   not always maintained. In addition, user initiation of changes to production
   programs could not be confirmed due to the absence of documentation indicating
   who initiated the changes;

•	 SSA's Software Engineering Technology (SET) did not establish different
   requirements for major development projects, routine maintenance, and cyclical
   changes; and

•	 SSA’s System Security Handbook (Chapter 10 on Systems Access Security) does
   not list all of the acceptable forms for granting access to SSA’s computerized
   systems and data.

Recommendations:
As previously stated in the FY 1999 Accountability Report, we recommend the following:

•	 SSA should complete implementation of it's Validation Transaction Tracking System
   (VTTS) and continue with its plan to automate the process for submitting System
   Release Certification (SRC) forms

•	 SSA should complete implementation of Platinum's Process Engineering Tool (PET)
   and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
   Maturity Model (CMM) methodology




                                            9

•	 SSA should update its System Security Handbook (Chapter 10 on Systems Access
   Security) to address all of the acceptable forms for granting access to SSA’s
   computer systems and data


7.      SSA has a number of deficiencies in their systems contingency plan

As a result of the FY 1999 financial audit, we noted a number of deficiencies which, in
our view, would impair SSA’s ability to respond effectively to a disruption in business
operations as a result of a disaster or other long-term crisis. Although SSA has
performed a Business Impact Analysis, its list of critical workloads is still being finalized,
and recovery time objectives (RTOs) have not yet been established for each of the
critical workloads. Consequently, SSA has not established recovery priorities for all of
its systems in the mainframe and distributed environments. Further, the plan for
recovering the critical workloads still needs to be fully tested. Finally, SSA has not fully
updated the contingency plans for the headquarters site or finalized and tested
contingency plans for non-headquarters sites.

While deficiencies in a contingency plan does not directly affect performance measures,
a risk still exists. A failure to respond effectively to a disruption through proven recovery
procedures could affect both the quality and quantity of data used in the accumulation
and calculation of all performance measures.

Recommendations:
As previously stated in our FY 1999 Accountability Report, we recommend that SSA:

•	 Finalize the list of critical SSA workloads and fully test the plans for recovering each
   workload;

•    Establish RTOs for each critical workload;

•	 Establish recovery priorities for all systems and applications (mainframe and
   distributed);

•    Update contingency plans for headquarters;

•	 Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
   processing facilities; and

•    Finalize and test contingency plans for non-headquarters sites.


OTHER MATTERS

As part of this evaluation, PwC was tasked to evaluate the appropriateness of the
performance measures. In this section, we discuss the relevance of each performance


                                              10

measure with respect to GPRA and look to the future by evaluating SSA's readiness to
incorporate the final phases of GPRA into their processes.

1.	      Documents prepared for external evaluation of SSA performance could be
         improved to clearly explain the intended uses of the performance measures
         to comply with future GPRA requirements

The United States General Accounting Office (GAO) encourages agencies to "include
explanatory information on the goals and measures." 1 In addition, best practices in
performance measurement dictate that agencies should provide external stakeholders
with such information. Furthermore, it can be expected that agencies will be required to
provide such information in the near future as GPRA continues to evolve.

Over the past few years, SSA has continuously improved their performance planning
documents by adding in-depth discussions on their strategies and key performance
indicators. With respect to the performance metrics studied as part of this evaluation,
however, the 1997-2002 Strategic Plan, the FY 2000 Performance Plan, and the FY
1998 Annual Accountability Report do not clearly explain the intended purpose of each
performance measure with respect to evaluating overall SSA performance. In each
case, the documents clearly associate each metric with the strategic goals and
objectives that they support, but they do not explain to the external stakeholder exactly
how they are applied.

Describing the use of these performance measures would help to clarify the overall
objectives of the SSA strategic planning process and would clarify how the subject
metrics fit into that process.

In a July 1999 report2, the General Accounting Office (GAO) rated Fiscal Year 2000
Annual Performance Plans of all federal agencies in three key elements of “informative
performance plans:”

1. Clear pictures of intended performance
2. Specific discussion of strategies and resources
3. Confidence that performance information will be credible

Although SSA was considered relatively strong as compared to most other agencies,
their weakest ratings were received for the categories of "Degree of Confidence that
Performance Information will be Credible" and "Specificity of Strategic Resources." Our
observations were consistent with these findings (see Item #5 in previous section,
Results of Engagement). However, if SSA develops clear and concise descriptions of
each performance measure's source and its intended strategic use, we believe they can
bolster their future GAO ratings relative to informative performance plans.



1
    GAO/GGD/AIMD-99-69, "Agency Performance Plans"
2
    GAO/GGD/AIMD-99-215, July 1999.


                                            11

2.	    The nine performance measures are not explicit performance budgeting
       metrics, but are nonetheless appropriate internal performance indicators
       and are useful to the SSA strategic planning process

An important intent of GPRA in the future is to facilitate performance budgeting, which
will allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, agencies must develop measures that will help external stakeholders
such as Congress to match resources to performance.

Under GPRA requirements, an agency must rely on two distinctive types of measures:

       Outcome performance measures. These measures are intended to gauge the
       effectiveness of the organization at fulfilling its strategic goals. Often, however,
       these performance measures are not completely under the span of influence of
       the organization. Consequently, while they represent good measures of the
       accomplishment of a strategic goal, they do not reflect the success of an
       organization in contributing to the achievement of the goal.

       Workload and output performance measures.3 These measures are used to
       gauge the level of effort required for a given activity, including characteristics
       established as performance standards (e.g., Percent of OASI claims processed
       by the time the first regular payment is due or within 14 days from effective filing
       date, if later).

While outcome performance measures are often more accurate indicators of the
success or failure of an organization's strategic goals, it is workload and output
measures that fall under an organization's span of influence. Consequently, workload
and output measures are more often used in external reporting to support organizational
activities. However, these workload and output performance measures are seldom
related to either outcomes or amount of resources spent processing the workload or
creating the output. As a result, they represent little value to external stakeholders
making resource allocation decisions.

If viewed in isolation, none of the nine performance measures considered on this project
would suffice as explicit outcome performance measures for external stakeholders to
use in a resource allocation or performance budgeting oversight role. However, that is
not to say that these measures are not of value. In fact, they indicate to external
stakeholders, including congressional appropriators, customers, policy makers, and the
general public, how effective SSA is at fulfilling its overall mission. More importantly,
they serve a useful internal purpose in the SSA performance planning process. For
example, many of the measures we analyzed (Performance Measures 2, 4, 5, 6, and 7)
are workload counts, which are important for individual program managers when
making management decisions.

3
  The SSA documentation refers to such metrics strictly as outputs, but that is merely a matter of
semantics. In either case, they refer to a level of effort for a given activity.


                                                12

       Performance Measure #6. The FY 2000 Annual Performance Plan (Appendix 1)
       uses this metric as "Output Measures for Major Budgeted Workloads" to support
       the strategic objective "to deliver customer-responsive world-class service."
       However, it is not clear how it accomplishes this.

       This measure is not particularly valuable to an external stakeholder for
       performance budgeting because it does not relate resource utilization to an
       output or outcome. However, it is clearly not intended for that purpose because
       the SSA documentation identifies it as an output measure for workload, and this
       measure does help to indicate the overall effectiveness of SSA at fulfilling its
       mission.

To SSA's credit, they have developed a number of useful performance measures in the
spirit of GPRA and have discussed them in proper detail in the FY 2000 Performance
Plan. 4 As we have shown, the nine performance measures covered by this project can
not be considered as true high-level, external measures. Nevertheless, they do appear
to have specific uses, as discussed above. Again, SSA would benefit the external
stakeholder by clarifying exactly what these intended uses are (see “Other Matters” item
#1).

3.	    SSA is positioned to be a leading performance-based budgeting
       organization and to meet the future requirements of GPRA

Since 1988, SSA has an established history of strategic planning, using specific
performance measurements. Building on this history, SSA implemented GPRA's
requirements for strategic planning, performance planning, and performance reporting.
One of GPRA's ultimate objectives is to facilitate performance budgeting, which will
allow Federal agencies to allocate resources in an effort to achieve "optimal" results.
Consequently, to help external stakeholders such as Congress match resources to
performance, agencies must eventually develop performance measures that are linked
to resource requirements.

Performance budgeting is the analysis of performance measurement data for the
purpose of allocating budgetary resources more effectively. Specifically, performance
budgeting for GPRA is complete upon the submission of multiple resource-to-result
scenarios within one annual budget.

The final stage of GPRA implementation is the successful piloting of performance
budgeting at no less than five federal agencies. Currently, few federal agencies are
capable of acting as a performance budgeting pilot and this final stage of GPRA has

4
  In earlier documents, such as the FY 1998 Accountability Report, SSA presented the
performance measures in a manner that seemed to give each one equal weight. In the more
recent documents, however, SSA has placed greater emphasis on the more high-level, outcome
oriented performance measures.


                                            13

consequently been delayed. However, the Office of Management and Budget (OMB)
has recently designated SSA as one of the government-wide performance budgeting
pilot projects. Within SSA, the Continuing Disability Reviews program is the specific
activity covered by this designation. OMB considers the performance budgeting pilot
projects to be an opportunity to examine the feasibility and potential application of
several approaches to performance budgeting. In this context, OMB intends to use
performance and resource data provided by the pilots during development of the FY
2001 budget and to report to Congress on the results of the pilots no later than March
31, 2001, as required by GPRA. With proper planning and preparation, SSA is uniquely
positioned to be one of the first truly successful performance-based budgeting
organizations.

In anticipation of the next phase of GPRA, we believe SSA needs to develop a suitable
performance budgetary model by combining cost accounting concepts with performance
measurement methodology. A high-level description of one possible model is listed
below:

• SSA defines a set of reporting segments that represent all of their work.
• SSA maps their performance measurements to these specific reporting segments.
•	 SSA calculates person-hours associated with these reporting segments, so that all
   personnel within SSA are accounted for in the model.
•	 SSA builds the model around this data to allow for current resource to
   workload/result analysis and future resource to workload/result forecasting.

SSA could build this model at any level of detail: by resource type, resource location, or
any other classification methodology. By linking resources to performance goals at this
level of detail, SSA would thus satisfy the annual performance-planning requirement for
specificity of strategies and resources, while striving to become the first agency to
successfully implement performance budgeting.




                                            14

                           APPENDICES


APPENDIX A – Background

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

                                                                              Appendix A

                             BACKGROUND

Government Performance and Results Act

The Government Performance and Results Act (GPRA) was enacted to increase
accountability in the Federal agencies. Prior to GPRA, Federal agencies lacked well-
defined program goals and adequate feedback regarding program performance. This
hindered Federal agencies in their efforts to increase program efficiency and
effectiveness, and prevented them from being accountable. Furthermore, this lack of
accountability on the part of the Federal managers prevented Congress from making
informed budgetary decisions. In order to increase accountability, GPRA required
Federal agencies to develop 5-year strategic plans, annual performance plans, and
annual performance reports.

 Strategic plans define an agency's mission in terms of their major functions and
operations. The agency's goals and objectives, and how they will be achieved by the
agency, must be included in their strategic plan. The strategic plan also describes the
quantifiable performance measures to be used by the agency, and how they relate to
the agency's goals and objectives.

Annual performance plans establish objective, quantifiable, and measurable
performance goals for an agency. These plans also describe the operational processes
and resources necessary to meet the performance goals, establish performance
indicators to measure the relevant outcomes, and provide a basis for comparing the
outcomes with the performance goals. The annual performance plans also provide a
means to validate and verify the measured outcomes.

Annual performance reports compare the actual program performance achieved with
the performance goals for each performance indicator defined in the agency's annual
performance plan. These reports contain the agency's evaluation of their performance
plan relative to the performance achieved during the fiscal year. If performance goals
have not been met, the agency must include an explanation, as well as a plan for
achieving the performance goals in the future. Alternatively, if the agency believes the
goals are impractical, they would include their rationale and recommended alternatives
in the annual performance report.

SSA's Performance Measures

The Social Security Administration (SSA) defined five strategic goals in it's FY 1998-
2002 strategic plan, Keeping the Promises:

1.	 Promote valued, strong, and responsive social security programs and conduct
    effective policy development, research, and program evaluation


                                           A-1

2. Deliver customer-responsive, world-class service
3.	 Make SSA program management the best in the business, with zero tolerance for
    fraud and abuse
4. Be an employer that values and invests in each employee
5. Strengthen public understanding of the social security programs

For each strategic goal, SSA's strategic plan also defined specific objectives to achieve
each of the goals.

SSA's FY 1998 annual GPRA performance report, published as part of their FY 1998
Accountability Report, includes actual performance data and goals for 57 performance
measures. PricewaterhouseCoopers was engaged to evaluate nine specific
performance indicators found in SSA's FY 1998 Accountability Report. The
performance indicators (or performance measures, as they are referred to in the
Accountability Report) are as follows:

1.	 Percent of OASI claims processed by the time the first regular payment is due or
    within 14 days from effective filing date, if later
2. OASI claims processed
3. Percent of initial SSI aged claims processed within 14 days of filing
4. SSI aged claims processed
5. Representative payee actions
6. SSN requests processed
7. Annual earnings items
8. Percent of earnings posted to individuals’ records by September 30
9. Percent of individuals issued SSA-Initiated PEBES as required by law

During testing, it was noted that the nine performance measures could be defined by six
distinct processes. The systematic flow of information for three of the measures was
almost identical to the flow of information for three other measures. Furthermore, these
groupings match those that the OIG has selected for generating their upcoming reports.
The six processes are as follows:

1.    RSI claims (performance measures #1 and #2)
2.    SSI aged claims (performance measures #3 and #4)
3.    Representative payee actions (performance measure #5)
4.    SSN requests processed (performance measure #6)
5.    Annual earnings items (performance measures #7 and #8)
6.	   Percent of individuals issued SSA-Initiated PEBES as required by law (performance
      measure #9)

This report represents our understanding and evaluation of the SSN requests
processed process.

The SSN enumeration process encompasses performance measure #6. Performance
measure #6, SSN requests processed, totals the number of SSN requests processed



                                           A-2

during the fiscal year. The objective of the measure is to assist SSA in positioning their
resources and processes to meet emerging workloads. This objective relates to SSA's
third strategic goal, to "make SSA program management the best in the business, with
zero tolerance for fraud and abuse".

This performance measure is presented as a workload count, and includes every SSN
request that is completely processed during the fiscal year. SSN requests are
processed and completed through either the enumeration at birth (initiated at the
hospital) process or through the field office process. The count does not include any
pending requests. The FY 1998 performance goal was 16,600,000 requests processed,
and SSA reported the performance result as 16,200,000 requests processed.

Performance measure #6 is obtained from the SSN Enumeration Process. The flow if
information is depicted in Figure 4 and the underlying process is shown in greater detail
in Appendix E.


                                      SSN Enumeration Process

      Enumeration                                                                    Division of Service
                       State Bureau of                           MES Nightly Batch
        at Birth                           SSA Central Office                           Delivery and
                       Vital Statistics                               Run
         Input                                                                        Program Policy




                         Modernized
                        Enumeration                                                                        Accountability
       Field Office                        MES Nightly Batch                           Cost Analysis          Report
                       System (MES)                                 FOSSNER
          Input                                 Run                                    System (CAS)
                      Batch or Interview
                         Input Mode




                                                          Figure 4

The Modernized Enumeration System (MES) is the underlying programmatic system
that facilitates the SSN Enumeration process. There are two major paths for a request
to reach MES. Most SSN requests are initiated in a Field Office. An applicant desires
an original Social Security Number (SSN) and card, a replacement SSN card, a new
Social Security Number, or a name change for an existing Social Security Number.
After receiving the SS-5 SSN request application form, the field office personnel input
the claim into MES using either the "Interview" or "Batch" modes.

The second path into the system is from each of the State's Bureau of Vital Statistics
(SBVS). When a baby is born in a US hospital, the mother fills out forms for the birth
certificate. The SBVS then transfers the applicable information to the SSA Central
Office, where each case is subsequently entered into MES. This path is called
Enumeration at Birth (EAB).

Once in MES, the applications are processed during the subsequent nightly batch run.
The systems performs numerous validations and edit checks, assigns and/or verifies


                                                                A-3

the Social Security Number, and generates the records needed to print and distribute
the social security card. The system also generates historical transaction records that
are used to prepare various types of management information.

Performance measure #6 has two major components, the counts from the Field Offices
and the counts from the Enumeration at Birth process. The SSN Requests that are
initiated through the field offices are tabulated using the Field Office SSN Enumeration
Report (FOSSNER). This report is compiled by OIM using the FOSSNER management
information system. The Division of Service Delivery and Program Policy tabulates the
counts for Enumeration at Birth. Both counts are then provided to DCFAM, and they
are subsequently entered into the Cost Analysis System (CAS). CAS sums the two
components to obtain the performance measure. Each year, OFPO obtains the
performance measure from CAS for inclusion in the Accountability Report.




                                           A-4

                                                                               Appendix B

               SCOPE AND METHODOLOGY

The SSA OIG contracted PricewaterhouseCoopers to evaluate nine of SSA's FY 1998
performance indicators established to comply with GPRA. This report reflects our
understanding and evaluation of the SSN requests processed process, which includes
performance measure #6 (SSN requests processed) Testing was performed from June
9, 1999 through October 1, 1999, as follows:

1.	 Gain an understanding and document the sources from which data is collected to
    report on the specified performance measures;
2.	 Identify and test critical controls (both EDP and manual) of systems from which the
    specified performance data is generated;
3.	 Test the accuracy of the underlying data for each of the specified performance
    measures;
4. Recalculate each specific measure to ascertain its mathematical accuracy; and
5.	 Evaluate the impact of any relevant findings from prior and current audits with
    respect to SSA's ability to meet performance measure objectives; and
6.	 Identify findings relative to the above procedures and make suggestions for
    improvement.

As a result of our reliance on prior and current SSA audits, our report contains the
results of internal control testing and system control deficiencies.

Limitations
Our engagement was limited to testing at SSA headquarter. Furthermore, when
recalculating the specific performance measures, we used FY 1998 data except when
SSA was unable to provide all the documentation necessary to fully evaluate the FY
1998 performance measure amounts reported in the Accountability Report. In those
cases, FY 1999 data was evaluated.

These procedures were performed in accordance with the AICPA's Statement on
Standards for Consulting Services, and is consistent with Government Auditing
Standards (Yellow Book, 1994 version).


1.	    Gain an understanding and document the sources from which data is
       collected to report on the specified performance measures

We obtained an understanding of the underlying processes and operating procedures
surrounding the generation of performance measures through interviews and meetings
with the appropriate SSA personnel and by reviewing the following documentation:




                                           B-1

i Policies and procedures manual for procedures surrounding the processing,
  accumulating, and reporting of the data for the nine performance measures;
i PwC system walk-through descriptions;
i SSA-provided system descriptions;
i Internal or external reports on the nine performance measures (including OIG, GAO,
  etc.); and,
i Review of any of the nine performance measures performed in conjunction with prior
  financial audits by PricewaterhouseCoopers.


2.      Identify and test critical controls (both EDP and manual) of systems from
        which the specified performance data is generated

Based on the understanding we obtained above in Methodology #1, we identified key
controls for the nine performance measures. For each of the nine performance
measures, the controls surrounding the following were tested (Note: in cases where
PricewaterhouseCoopers tested key controls as part of prior financial audits, findings
were updated, and testing was not reperformed):

Performance Measure #6: SSN requests processed

•    SSA receipt of Enumeration at Birth (EAB) data
•    OIM receipt of all completed EAB and Field Office (FO) transactions
•    OIM summary reporting process of all FO transactions
•    Applicable application controls
•    Applicable general computer controls
•    Receipt of adequate and appropriate proofs of identity and age from new and
     replacement SSN applicants
•    Review of the Weekly District Office Sample Report by field office personnel
•    Review of the Diary Alert Report by field office personnel
•    Verification of birth certificates for original SSNs for U.S. citizens under 18 years of
     age, either at field offices or through the Enumeration at Birth process
•    Current procedural and systems documentation for CAS

All Performance Measures

•    Formation of specific systems requirements for different major development projects,
     routine maintenance, and cyclical changes
•    Information protection control structure (system security)
•    SSA's systemic contingency plan
•    Documentation of program changes evidencing user approval and testing
•    SSA's System Security Handbook




                                              B-2
3.      Test the accuracy of the underlying data for each of the specified
        performance measures

Based on the understanding we obtained above in Methodology #1, we identified key
files, databases, and reports for the nine performance measures. To ensure data
availability and to evaluate the data, Computer Assisted Audit Techniques (CAATs)
testing was performed for each of the nine performance measures as follows:

Performance Measure #6: SSN requests processed

•    Compared the OIM Monthly Summary File to the appended daily history file; and
•    Queried the MES file of the NUMIDENT to replicate the September 1998 FOSSNER,
     National and Regional Totals Processed, and EAB records processed, to ensure
     integrity of data.


4.      Recalculate each specific measure to ascertain its mathematical accuracy

Based on the understanding we obtained above in Methodology #1, we requested and
reviewed documentation to ensure the mathematical accuracy of the nine performance
measures as follows:

Performance Measure #6: SSN requests processed:

•    Traced the performance measure value per the FY 1998 Accountability Report to the
     values in the EAB and FOSSNER reports; and
•    Traced the performance measure values per the EAB and FOSSNER reports to
     MES.


5.      Provide OIG management with a written report identifying findings relative
        to the above procedures and with suggestions for improvement

Based upon the evaluation performed, as outlined in the four above methodologies,
PricewaterhouseCoopers has prepared a written report detailing the internal control
deficiencies in SSA's performance measurement systems, as well as inaccuracies in
SSA data used to report on the nine selected performance measures.
PricewaterhouseCoopers has also provided recommendations to address the system
deficiencies and data inaccuracies noted during the performance of the agreed upon
procedures.




                                          B-3
6.      Evaluate the impact of any relevant findings from prior and current audits
        with respect to SSA's ability to meet performance measure objectives


PricewaterhouseCoopers has noted five relevant findings from prior and current audits
that may impact SSA's ability to meet performance measure objectives. All findings
were noted in our FY 1999 financial audit. The relevant findings impact all performance
measures, and are as follows:

•    SSA has a number of data integrity deficiencies
•    SSA's system environment has security deficiencies
•    CAS procedural and systems documentation have not been updated
•    SSA has systems design and documentation deficiencies
•    SSA has a number of deficiencies in their systems contingency plan




                                          B-4
                                                                            Appendix C

                      AGENCY COMMENTS

January 28, 2000


James G. Huse, Jr.
Inspector General

William A. Halter
Deputy Commissioner


Office of the Inspector General (OIG) Draft Report, "OIG Performance Measure Review:
Summary of PricewaterhouseCoopers (PwC) LLP Review of SSA’s Performance Data”

We appreciate the opportunity to comment on the draft summary report. We also
appreciate the OIG/PwC acknowledgement that SSA has developed a number of useful
performance measures in the spirit of the Government Performance and Results Act
(GPRA) and has discussed them in proper detail in the FY 2000 Performance Plan.

Further, we appreciate the report’s stated intention to provide SSA with suggestions
which may assist us in preparing for the final phases of GPRA. However, we believe
the report should more clearly state throughout that current GPRA requirements were
not in effect during FY 1998, the year for which the data were examined, and that it
would therefore be inappropriate to extrapolate the findings to SSA’s implementation of
GPRA for FY 1999 or FY 2000.

The GPRA statute requires that certain elements be included in annual performance
plans and that other elements be included in annual performance reports. GPRA
further requires that agencies prepare annual performance plans that set out specific
performance goals for FYs beginning with 1999. It also requires that agencies report
annually on performance compared to goals, with the first report due in March 2000, to
cover FY 1999. As mentioned above, the requirements of GPRA, including a
description of the means employed to verify and validate the measured values used to
report on program performance, were not in effect for FY 1998. SSA’s efforts in this
area were preliminary, and have significantly evolved with our FY 1999 and FY 2000
GPRA documents.

For FY 1998, and as we were moving toward preparation of our first GPRA Strategic
Plan and our Annual Performance Plan for FY 1999, SSA published a Business Plan.
We stated in our Business Plan that for FY 1998 we were including performance



                                          C-1
measures for which we had measurement systems in place and current performance
information. We also included related output measures for several priority workloads.

Although not a GPRA requirement, we also elected to report in our FY 1998
Accountability Report on those FY 1998 goals which we decided to include in our FY
1999 Annual Performance Plan. We did not however, meet all the requirements for an
Annual Performance Report in that document nor was it our intention to do so. We are
concerned that implicit in many of the report’s recommendations is the erroneous
conclusion that SSA should have complied, in 1998, with statutory requirements that
were not yet in effect. We believe that all GPRA requirements are met, as required by
statute, by our recently released FY 1999 GPRA Performance Report.

Finally, as you know, 30 of the 40 recommendations contained in the subject audit
report are either exactly duplicative or very nearly duplicative of recommendations
contained in past financial statement audit reports. Since we are already taking
corrective actions for those that we accepted as valid, we will not be addressing the
duplicate recommendations in this response. We will, of course, continue our efforts to
implement corrective actions, as appropriate, and to provide status reports until
completed.

As you indicate, SSA is positioned to be a leading performance based budgeting
organization and to meet the future requirements of GPRA. The Office of Management
and Budget has designated SSA as a pilot project for performance budgeting. The
continuing disability reviews program is the specific activity covered by this designation
and the time period covered will be FY 2001. We anticipate that our participation will
enrich the learning from the government-wide pilot with regard to the feasibility and
impacts of performance based budgeting.

Attached are specific comments to the draft report. Staff questions may be referred to
Odessa J. Woods on extension 50378.



Improvement Area 1--SSA lacks sufficient performance measure process
documentation and did not retain documents to support the FY 1998 amount.

Recommendation 1

1.     We recommend that SSA place ownership for the performance measure process
and reporting within an organizational unit. Data ownership would still remain with the
user organizations. However, an organizational unit should be accountable for the
overall performance measure processes and results. Their charter should include the
following responsibilities:




                                           C-2
•   Identify and document the processes surrounding the generation and accumulation
    of performance measure values. This would establish a clear method for verifying
    and validating the performance measures.

•   Establish policies and procedures surrounding the retention of performance measure
    documentation. The documentation retained should allow for the timely verification
    of the performance measure values, and should be maintained for at least one year.

•   As new systems are developed, evaluate their potential impact on the accumulation
    of performance measure data. Systems with potential impact should be designed to
    include the means of producing a verifiable audit trail to validate the performance
    measure results as they are defined in the Accountability Report.

Response to Recommendation 1

We agree in concept with this recommendation. SSA’s Office of Strategic Management
(OSM) is responsible for coordinating the Agency’s GPRA activities. In addition, we will
continue to work to improve the development and retention of the kind of documentation
needed for external audits of our performance measures.


Improvement Area 2--SSA has a number of data integrity deficiencies.

Recommendations 2-10

Response to Recommendations 2 - 10

These recommendations are either a direct reprint of the recommendations contained in
PricewaterhouseCoopers' (PwC) FY 1998 Management Letter, Part 2 or a reiteration
containing only minor editorial changes.

Recommendation 3

•   SSA should provide institutional oversight and regular training to authorized FO
    personnel in the processing of SS-5s (MES)

Response to Recommendation 3

We agree and will provide oversight and regular training to authorized field office
personnel in the processing of SS-5s.

Recommendation 4

•   SSA should develop and implement detailed procedures in the Program Operations
    manual System (POMS) for reviewing the Enumeration Sample Listing. Procedures
    should specifically address: 1) the individual who is to perform the review, 2) steps


                                           C-3
    on how to complete the review and document the results of the review, and 3) the
    individual whom is to approve the review, as well as requirements for annotating the
    approval signature on the report. In addition, POMS should define retention
    requirements for the records of completed reviews (MES)

Response to Recommendation 4

We agree. The weekly Enumeration Sample Listing will be automated in the
Comprehensive Integrity Review Process (CIRP) Release 2.0, which will be
implemented in March 1999. Procedures for processing the automated Enumeration
Sample Listing will be included in the Integrity Review Handbook, which will be issued in
March 1999. The clearance report associated with the review will be maintained
electronically in CIRP, obviating the need for FO documentation retention.

Recommendation 5

•   SSA should develop and implement detailed procedures in POMS for reviewing the
    Diary Alert. Procedures should specifically address: 1) the individual who is to
    perform the review, 2) steps on how to complete the review and document the
    results of the review, and 3) the individual who is to approve the review, as well as
    requirements for annotating the approval signature on the report. In addition, POMS
    should define retention requirements for the records of completed reviews (MES)

Response to Recommendation 5

We agree and will develop and implement detailed procedures in POMS for reviewing
the Diary Alert.

Recommendation 6

•   SSA should perform a third party review of state agencies, such as a Statement on
    Auditing Standards (SAS) 70 review. A SAS 70 review will determine if key manual
    and automated controls are in place and working as intended to ensure the security,
    validity, completeness, and accuracy of SSA data (MES)

Response to Recommendation 6

We request the auditors reconsider this recommendation. The States are responsible
for registering births and issuing birth certificates to individuals and SSA has no basis
nor reason to question the States’ procedures and processes. The auditors have
presented no documentation that States are issuing invalid birth certificates and we
have no experience to that effect. It would constitute an unfunded mandate for SSA to
require the States to prove they are correctly performing an inherent State function.




                                            C-4
Improvement Area 3--SSA's system environment has security deficiencies.

Recommendations 12-22

Response to Recommendations 12-22

These recommendations are direct reprints of findings and recommendations contained
in PwC’s FY 1999 report on management's assertion about the effectiveness of internal
control.

Recommendation 12

As previously reported in the FY 1999 Accountability Report, we recommend that SSA
accelerate and build on its progress to enhance information protection by further
strengthening its entity-wide security as it relates to implementation of physical and
technical computer security mechanisms and controls throughout the organization. In
general, we recommend that SSA:

•   Reevaluate its overall organization-wide security architecture;

Response to Recommendation 12

SSA agrees with this recommendation and is initiating a full reassessment of its
organization-wide security architecture to ensure that vulnerabilities, especially those
introduced by new technology, are being addressed. This strategic reassessment will
allow SSA to identify any additional initiatives needed to upgrade its programs.
Enhancements to the existing architecture resulting from this activity will be
implemented and communicated to all SSA components.

Recommendation 13

•   Reassess the security roles and responsibilities throughout the organization’s central
    and regional office components;

Response to Recommendation 13

SSA agrees with this recommendation and is currently reassessing security roles and
responsibilities. Recently, SSA elevated the organizational structure of the entity for
information systems security within the Office of Finance, Assessment and
Management. Also, within the Office of Operations, a higher level security oversight
group was formed and there was a reassessment of regional security officer roles to
emphasize the increased importance of their roles.

Recommendation 14

•   Assure that the appropriate level of trained resources are in place to develop,


                                           C-5
    implement and monitor the SSA security program;

Response to Recommendation 14

SSA agrees with this recommendation and has enhanced security training by directing
additional funds toward new security training courses for both Headquarters and
regional security staffs. In addition, the Office of Systems is taking steps to improve its
security program by obtaining additional expertise via contractor services.

The additional training and the organizational refocusing discussed above will ensure
the appropriate level of trained resources are in place to develop, implement and
monitor the SSA security program.

Recommendation 15

•   Enhance and institutionalize an entity-wide security program that facilitates
    strengthening of LAN and distributed systems’ security;

Response to Recommendation 15

SSA agrees with the recommendation and has been working diligently on improvements
in this area. SSA will continue to enhance and institutionalize the entity-wide security
program through a series of enhancements to the mainframe, LAN and distributive
systems. The enhancements will include: improved monitoring of access controls,
particularly in field activities; full implementation of the Enterprise Security Interface;
administrative monitoring and penetration testing.

Recommendation 16

•   Review and certify system access for all users;

Response to Recommendation 16

SSA agrees with this recommendation and continues to make progress in this area.
The Office of Systems continues to work aggressively to adjust access rights under its
Standardized System Profile Project.

Recommendation 17

•   Enhance procedures for removing system access when employees are transferred
    or leave the agency;

Response to Recommendation 17

SSA agrees with this recommendation and will continue to improve our procedures and
the comprehensive processes already in place for removing system access when


                                            C-6
employees are transferred or leave the Agency.

Recommendation 18

•   Decrease vulnerabilities in the mainframe operating system configuration;

Response to Recommendation 18

SSA agrees with this recommendation and will continue to evaluate our mainframe
operating system configuration and initiate changes to protect against threats, both
deliberate and nonintentional.

Recommendation 19

•   Implement the mainframe monitoring process;

Response to Recommendation 19

SSA agrees with this recommendation. As acknowledged earlier in the report, SSA has
established the SMART Report, which is distributed to the security officers responsible
for the groups using the systems. While most users are in non-Headquarters offices, all
users, including those in central office, are tracked and monitored. Procedures have
been distributed which focus the reviews on specific types of transaction scenarios,
thereby making the SMART system a more useful security management and
enforcement tool. We agree that additional enhancements for increased use of the
report can be made both in the field and in central office. We will continue to improve
the use of the report to monitor inappropriate access to SSA's systems.

Recommendation 20

•   Finalize accreditation and certification of systems;

Response to Recommendation 20

SSA agrees with this recommendation and either certified or recertified all of SSA's
sensitive systems in July 1999.

Recommendation 21

•   Develop and implement an ongoing entity-wide information security compliance
    program; and

Response to Recommendation 21

SSA agrees with this recommendation and has a number of existing and planned
programs to monitor compliance with security policies and procedures. In addition to


                                            C-7
automated controls, SSA also monitors compliance through programmatic and systems
audits, financial systems reviews, and other internal studies and reviews.

SSA has make progress in developing the Comprehensive Integrity Review Process
(CIRP) system that will consolidate integrity review functions into a single automated
facility where transactions will be screened against specific criteria. The criteria include
cross-application criteria and can be changed to concentrate on emerging trends. SSA
remains committed to ongoing enhancement and implementation of the CIRP system.

Recommendation 22

•   Strengthen physical access controls at non-headquarters sites.

Response to Recommendation 22

SSA agrees with this recommendation and is committed to strengthening security at
non-Headquarters sties. We are in the process of enhancing the badging procedures
and policy enforcement in the regions and other major non-Headquarters facilities. In
addition, the Agency, through its security tactical plan, has been working to increase
physical security at the National Computer Center (NCC) and SSA facilities around the
country.


Improvement Area 5--GPRA documents prepared for external evaluation of SSA
performance do not clearly indicate the sources of the performance measures.

Recommendation 26

We recommend that SSA develop clear and concise descriptions of each performance
measure's source.

Response to Recommendation 26

We agree that reporting documents prepared for public consumption should contain, in
lay terms, clear descriptions of the sources of our performance measures. We will
consult with your office to determine where you believe this is not the case. In addition,
we would note that, our documents comply with the requirements of GPRA with regard
to appropriate level of documentation of the sources for external audiences. The A-11
guidance specifically recommends the following information on data sources:

•   The current existence of relevant baseline data, including the time-span covered by
    trend data;
•   The expected use of existing agency systems in the collection and reporting of data;
•   The source of the measured data;
•   Any expected reliance on an external source(s) for data, and identification of the
    source(s); and


                                            C-8
•   Any changes or improvements being made to existing data collection and reporting
    systems or processes to modify, improve, or expand their capability.

SSA’s FY 2000 Annual Performance Plan meets all these requirements.

Where additional, technical detail describing underlying processes and programmatic
systems that produce the reported metrics are needed by OIG and GAO auditors, we
will continue to make this detail available.


Improvement Area 8--The Cost Analysis System's (CAS) procedural and systems
documentation have not been updated.

Recommendation 31

We recommend that DCA explore alternatives for acquiring the resources needed to
update the existing CAS procedural and systems documentation, and to obtain
procedural documentation for the replacement systems.

Response to Recommendation 31

This recommendation was included as a recommendation contained in PwC’s FY 1998
Management Letter, Part 2.

We agree and will pursue alternatives for acquiring the resources needed to update
CAS procedures, manuals, handbooks and documentation. SSA is also initiating an
effort to design and implement an agency-wide managerial cost accountability process
and system which will eventually subsume the functions of the CAS.


Improvement Area 9--SSA has systems design and documentation deficiencies.

Response to Recommendations 32 - 34

These recommendations are equivalent to recommendations contained in PwC’s
FY 1998 Management Letter, Part 2.

Recommendation 32

We recommend the following:

•   SSA should complete implementation of it's Validation Transaction Tracking System
    (VTTS) and continue with its plan to automate the process for submitting System
    Release Certification (SRC) forms




                                         C-9
Response to Recommendation 32

We agree and believe the first portion of this recommendation is complete. Systems
began using VTTS in 1996 for selected validations. In October 1998, its use became
mandatory for all validations. VTTS has been converted to SQL and is available for all
systems. Evaluation will continue to make it more useful and flexible.

Target dates for automating the SRC forms submission process are now in place.
Prototype automated change control procedures are currently being tested and
evaluated which will satisfy the second portion of this recommendation. We expect to
complete evaluation of the prototype design by Spring 1999. (The prototype evaluation
was staged to include various life cycle development projects, e.g., new software
development (online and batch), maintenance, cyclical projects.) We are currently
setting up the evaluation of a maintenance type project. Upon completion of the
prototype evaluation, design changes resulting from the evaluation will be incorporated
into the automated procedures, software changes to this process will be made, and we
will then roll out the process on a project by project basis. We expect to begin roll out
by late Summer 1999.

Recommendation 33

•   SSA should complete implementation of Platinum's Process Engineering Tool (PET)
    and institutionalize Carnegie Mellon's Software Engineering Institute's Capability
    Maturity Model (CMM) methodology

Response to Recommendation 33

We agree but believe it is too early in the implementation process to provide a date for
complete implementation.

Presently, SET standards require documenting software changes. Nevertheless, we
are developing a more robust mechanism to support SSA’s Information Technology (IT)
infrastructure.

We are committed to software process improvement using Carnegie Mellon’s Capability
Maturity Model (CMM). We have also procured the PLATINUM Technology, Inc.’s
Process Engineering Tool (PET). When fully implemented, PET will replace and expand
upon the foundation built by SET.

With PET integrated within our CMM approach, SSA is building the foundation for a
comprehensive software process improvement infrastructure that goes well beyond the
objectives of SET. This infrastructure will create an environment that encourages,
supports and provides assurance that we are continuously making improvements in the
quality of software, productivity of the software development staff, and timeliness of
software delivery. This will be done by improving project management skills and




                                           C-10
approaches; defining IT Processes based on SSA and industry best practices;
supporting the use of metrics; and continuously improving IT processes.

Three CMM pilot projects are well underway and using SSA developed documented
procedures required for compliance with CMM Level 2 Key Process Areas (KPAs).
KPAs indicate where an organization should focus to improve its software process and
identify the issues that must be addressed to achieve the next maturity level. The KPAs
at Level 2 focus on the software project’s concerns related to establishing basic project
management controls. These KPAs are:

•   Requirements management
•   Software project planning
•   Software project tracking and oversight
•   Software subcontract management
•   Software quality assurance
•   Software configuration management

Processes for all of these KPAs have been developed for iterative lifecycle projects and
are available to the pilot project teams over the Web and in the PET tool. DCS is in the
process of identifying additional similar “rollout” projects to begin in 1999, which will use
these processes to achieve CMM Level 2 compliance. In addition, processes will be
developed and pilots initiated in 1999 for the following types of project:

•   Programmatic CICS and Batch
•   Administrative Development
•   Maintenance without established baselines
•   Legislative and Notices

These processes will be developed using the PET tool and its rich repository of best
practices and process techniques as the delivery mechanism for CMM. It will be
available to the projects over the WEB.

Recommendation 34

•   SSA should update its System Security Handbook (Chapter 10 on Systems Access
    Security) to address all of the acceptable forms for granting access to SSA’s
    computer systems and data

Response to Recommendation 34

We agree. Chapter 10 of the its System Security Handbook lists the SSA-120 as the
only security form acceptable. There may be other non-security forms being used for
non-security purposes, but they are not appropriately included in the SSH.




                                            C-11
Improvement Area 10--SSA has a number of deficiencies in their systems
contingency plan.

Response to Recommendations 35 – 40

These recommendations are direct reprints of recommendations contained in PwC’s FY
1999 report on management's assertion about the effectiveness of internal control.

Recommendation 35

As previously stated in the FY 1999 Accountability Report, we recommend that SSA:

•   Finalize the list of critical SSA workloads and fully test the plans for recovering each
    workload;

Response to Recommendation 35

SSA agrees with this recommendation. SSA recently reevaluated and confirmed its
critical workloads. Testing that will determine recoverability of all identified critical
workloads is scheduled for July 2000.

Recommendation 36

•   Establish RTOs for each critical workload;

Response to Recommendation 36

SSA agrees with this recommendation. It is SSA's goal to provide users with a fully
integrated set of software to process each critical workload as rapidly as possible. As
part of our July 2000 test, we plan to assess and determine realistic timeframes and
sequences for restoring critical workloads. These objectives will be incorporated into
the next iteration of the Disaster Recovery Plan (DRP). Subsequent DRP iterations will
include timeframes and other supporting information.

Recommendation 37

•   Establish recovery priorities for all systems and applications (mainframe and
    distributed);

Response to Recommendation 37

SSA agrees with this recommendation and continues to work to establish recovery
priorities for all mainframe and distributed systems and applications. DRP identifies the
recovery sequence of all mainframe workloads. We plan to determine realistic
timeframes for reestablishing access to these workloads. In addition, SSA will work to
further define the recovery of the distributed workloads.


                                            C-12
Recommendation 38

•   Update contingency plans for headquarters;

Response to Recommendation 38

SSA agrees with this recommendation. In compliance with Presidential Decision
Directive Number 67, Enduring Constitutional Government and Continuity of Operations
Plan, SSA has convened an agencywide workgroup to develop an infrastructure for
contingency planning. This includes defining organizational roles and responsibilities,
essential operations and staffing, training, maintenance, etc. The actions
recommended by the workgroup and approved by SSA management will be
incorporated in to the Agency Contingency plan.

Recommendation 39

•   Finalize and test SSA’s ultimate strategy for implementing and maintaining alternate
    processing facilities; and

Response to Recommendation 39

SSA agrees with this recommendation. Our current IAA with GSA provides SSA with a
long-term, alternate facility supplied through a GSA contract. These provisions will be
implemented and provide SSA access to the site for 1 year should a catastrophic event
leave the NCC uninhabitable for longer than 6 weeks. SSA annually tests the use of
alternate facilities when conducting its disaster recovery test of NCC operations. The
extent of these tests is limited by test time constraints, the smaller configuration used for
testing, availability of personnel and other such factors.

Over the years, SSA has gained significant experience in installing and running its
systems on a wide variety of hardware during disaster recovery tests and benchmarking
new computing platforms. We believe this experience has resulted in the development
of reliable procedures that allow SSA to bring up its systems at any site. This, of
course, does not remove SSA's burden of verifying that secondary sites are stocked, as
indicated, by the vendor. We will evaluate the benefits of establishing orientation visits
at the secondary sites.

Recommendation 40

•      Finalize and test contingency plans for non-headquarters sites.

Response to Recommendation 40

SSA agrees with this recommendation and is in the process of reviewing and updating
all of the Security Action Plans (SAP) that are in place in its non-Headquarters facilities.
The Area Directors will review and test the SAPs as they visit each site during the


                                            C-13
course of the year. The Agency also conducts field site visits to assess the security that
is in place in our offices. In the course of these visits, staff will analyze the plans for
effectiveness and verity that employees are familiar with their content and application.


We also offer the following comments:

Other Matters

1. Documents prepared for external evaluation of SSA performance could be improved
to clearly explain the intended uses of the performance measures to comply with future
GPRA requirements.

Agency Comment

In response to the cited General Accounting Office recommendations, SSA is
expanding the explanation of the goals and measures and how they contribute to
evaluating overall SSA performance in the FY 2001 Performance Plan due to Congress
in February 2000.

2. The nine performance measures are not explicit performance budgeting metrics, but
are nonetheless appropriate internal performance indicators and are useful to the SSA-
wide strategic planning process.

Agency Comment

The statements in this section should be modified to recognize that stakeholders not
only include Congressional appropriators, but also customers, policy makers and the
general public who are looking at the overall effectiveness of the Agency in fulfilling its
mission. GPRA prescribes that outcome measures will be used for this purpose.

3. SSA is positioned to be a leading performance-based budgeting organization and to
meet the future requirements of GPRA.

Agency Comment

We appreciate the confidence expressed by the OIG in SSA readiness for performance
budgeting. The Office of Management and Budget (OMB) has designated SSA as one
of the government-wide performance budgeting pilot projects provided for in GPRA.
Within SSA, the Continuing Disability Reviews program is the specific activity covered
by this designation. OMB considers the performance budgeting pilot projects to be an
opportunity to examine the feasibility and potential application of several approaches to
performance budgeting. In this context, OMB intends to use performance and resource
data provided by the pilots during development of the FY 2001 budget and to report to
Congress on the results of the pilots no later than March 31, 2001, as required by
GPRA.



                                            C-14
Appendix A, Background, GPRA

This section should state clearly that the requirements of GPRA for Agency
performance plans and Agency performance reports were not in effect until FY 1999. It
should also acknowledge that although the report covers FY 1998 performance
measures, the GPRA requirements, including descriptions of the means employed to
verify and validate the measured values used to report on program performance, were
not in effect at that time.

Appendix A, SSA’s Performance Measures

The last paragraph should read “FY 1997-2002 strategic plan, “Keeping the Promise.”




                                        C-15
                                                                                                                    Appendix D

                         Performance Measure Summary Sheets


Name of Measure                                        Measure Type         Strategic Goal/Objective
6) SSN requests processed.                             Workload             Goal: To make SSA Program management the best in
                                                                            business, with zero tolerance for fraud and abuse.
                                                                            Objective: To positioning the Agency's resources and
                                                                            processes to meet emerging workloads.

Definition                                                                                        Purpose
A workload measure that accounts for the total number of SSN card requests completed within a     To monitor SSA service
year (does not include any pending requests).                                                     programs in order to improve
                                                                                                  practice and to determine SSN
                                                                                                  requests processed in order to
                                                                                                  accurately secure budgetary
                                                                                                  requirements.

How Computed                                           Data Source          Data Availability     Data Quality
The sum of SSN requests processed and                  CAS                  Adequate              Adequate
completed through the following methods:               MES
enumeration at birth and field office requests, in a   NUMIDENT
given year.

Explanatory Information                                                                           Report Frequency
                                                                                                  Daily
                                                                                                  Monthly




                                                                  D-1
Target Goal                                          Division                    Designated Staff Members
16.6 million requests processed                      OFAM                        Shirley Hodges
                                                     OFPO

EDP AUDITOR Testing and Results
EDP Auditor testing was performed to ensure controls were in existence and operating effectively within the following processes:
• SSA receipt of Enumeration at Birth (EAB) data
• OIM receipt of all completed EAB and Field Office (FO) transactions
• OIM summary reporting process of all FO transactions
• Applicable application controls
• Applicable general computer controls
• Receipt of adequate and appropriate proofs of identity and age from new and replacement SSN applicants
• Review of the Weekly District Office Sample Report by field office personnel
• Review of the Diary Alert Report by field office personnel
• Verification of birth certificates for original SSNs for U.S. citizens under 18 years of age, either at field offices or through the
   Enumeration at Birth process
 • Current procedural and systems documentation for CAS
• Formation of specific systems requirements for different major development projects, routine maintenance, and cyclical changes
• Information protection control structure (system security)
• SSA's systemic contingency plan
• Full documentation of program changes evidencing user approval and testing
 • SSA's System Security Handbook

See results of engagement entitled "SSA has a number of data integrity deficiencies", " SSA's system environment has security
deficiencies," "CAS systems and procedural documentation have not been updated," "SSA has systems design and documentation
deficiencies," "SSA has a number of deficiencies in their systems contingency plan."

CAATs Testing and Results
•   Compared the OIM Monthly Summary File to the appended daily history file; and
•   Queried the MES file of the NUMIDENT to replicate the September 1998 FOSSNER, National and Regional Totals Processed,
    and EAB records processed, to ensure integrity of data.

See results of engagement entitled " SSA has a number of data integrity deficiencies."


                                                                 D-2
Process Improvement Testing and Results
•   Traced the performance measure values per the FY 1998 Accountability Report values to the EAB and FOSSNER reports; and
•   Traced the performance measure values per the EAB and FOSSNER reports to MES.

See results of testing entitled "SSA lacks sufficient performance measure process documentation, and does not retain documents to
support the FY 1998 amounts," " GPRA documents prepared for external evaluation of SSA performance do not clearly indicate the
sources of the performance measures."




                                                               D-3
                                   Appendix E

Performance Measure Process Maps




               E-1
                                                            SSN Enumeration Process
                                                     PM #6: Number of SSN Requests Processed
                                                                                                                                                               EAB
                                                                                                                                                                              1A
                                                                                             Exceptions returned to SBVS                                      Report


                                                                                                                                                         MES generates
                                               Mother fills out                                                               MES Performs
                                                                       SBVS provides             SSA Central Office                                       EAB summary
                      Baby is Born in US       forms for State                                                                 EAB Edits &
     Start                                                             applicable birth           enters new birth                                      report for States &
                          Hospital             Bureau of Vital                                                              returns exceptions
                                                                     information to SSA            info into MES                                          SSA Office of
                                              Statistics (SBVS)                                                                  to SBVS
                                                                                                                                                           Operations




                                                                      FO Service Rep               MES marks suspect                 MES clears
Applicant Desires                             Field Office Service
                       Request for SSN                               Enters Information          case with "S" & sends it             acceptable
    Original,                                   Representative
                       is made at Field                                into MES Using            to In Process File (IPS)         application to SS-5
Replacement,and/                              Determines Validity
                           Office                                    either "Interview" or         to await resolution or          Pending FIle for
or New SSN Card                                   of Request
                                                                        "Batch Mode"                elapse of 120 days             nightly batch run



                                              Field Office Service      Request for
                                                                                                 MES AESP module
                       Request is made          Representative       Original is denied if             checks               MES AESP module         MES AESP sends
                         via US Mail          Determines Validity    applicant is over 18         ALPHADENT &               writes exceptions to    EAB feedback file
                                                  of Request              years old               verifies/assigns             in-process file        to SBVSs
                                                                                                        SSN
             Denied Request (over 18 years of age)



                                                                                  File is labeled MES.PRD.ESMESMT.RYYMMDD

                                                                       OSDD produces                                                                      OIM FOSSNER system
                                                 MES prepares                                      OIM reads MES             OIM streamlines
  MES queries           MES prepares                                 daily history file with                                                            prepares monthly report with
                                              transaction records                                transaction records         MES transaction
 NUMIDENT to            information to                                transaction record                                                                FO counts for SSN requests
                                                 for each SSN                                        for FO SSN             record(s), retaining
  check SSN           generate SSN Card                                 for each SSN                                                                       recieved, pending and
                                                    request                                            requests                useful data
                                                                            request                                                                             completed




                                       Div. of Service                                                                                       OFPO uses PM #6
 OIM provides                                                                           Div. of Service
                                     Delivery & Program          Access DB                                       DCFAM enters FO               from CAS for
  monthly and                                                                         Delivery & Program
                          1A         Policy enters EAB         produces YTD                                       and EAB counts                inclusion in
cumulative YTD                                                                        Policy provides data
                                      data into Access         counts of EABs                                        into CAS                 Accountability
totals toOFPO                                                                             to DCFAM
                                             DB                                                                                                   Report



                                                                                                                                                   End                   10/15/99
                                                                                               CAS = Cost Analysis System                                                04:28 PM

                                                                                    E-2
